                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-45A                                   Office of Inspections                                September 2013




          Inspection of Embassy Kyiv, Ukraine




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                     1
Context                                                           2
Executive Direction                                               3
Policy and Program Implementation                                 4
  Reporting, Analysis, and Advocacy                               4
  Commercial Promotion                                            4
  Innovative Practice: Protection of Intellectual Property        5
  Law Enforcement and Rule of Law                                 6
  Foreign Assistance                                              6
  Political and Economic Section Staffing                         8
  Public Affairs Section                                          8
  Consular Operations                                            12
  American Citizens Services                                     12
  Immigrant Visas                                                12
  Fraud Prevention Unit                                          15
Resource Management                                              16
  Management Section                                             17
  Rightsizing                                                    17
  Financial Management                                           18
  International Cooperative Administrative Support System        19
  Human Resources                                                20
  Tour of Duty                                                   21
  Post Language Program                                          22
  Innovative Practice: Reorientation of Locally Employed Staff   22
  General Services Operations                                    23
  Facilities Management                                          24
  Information Management                                         26
Quality Of Life                                                  28
Management Controls                                              30
List of Recommendations                                          31
List of Informal Recommendations                                 33
Principal Officials                                              35
Abbreviations                                                    36




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Embassy Kyiv has been processing Ukrainian diversity visas since March 2012.
       Indications of widespread fraud have emerged. The program requires urgent attention and
       corrective action from Washington.

   •   The Bureau of Overseas Buildings Operations and Embassy Kyiv are considering
       reconverting the former Marine House into a new residence for the deputy chief of
       mission. The project will cost approximately $2.5 million, not counting the cost of
       reconversion of the current deputy chief of mission residence to separate quarters for
       several other families. A cost-benefit analysis is urgently needed to determine whether
       the former Marine House should be converted into multiple apartment units instead, a
       move that could yield cost savings of $200,000 to $300,000 annually.

   •   Eighty percent of Embassy Kyiv’s grant recipients live outside the capital, making
       oversight difficult. A travel cap imposed by the Department of State in December 2012
       does not include grants monitoring in the list of mission-essential travel. The guidelines
       defining travel to monitor grantee performance should be redefined as mission essential,
       and thus exempt from the travel cap.

   •   The OIG team identified two innovative practices. First, Embassy Kyiv sponsored a
       contest among university students to promote intellectual property protection. Second,
       Embassy Kyiv management officers realized that newly-hired local staff members
       receive an orientation briefing but no further briefings as their careers progress. To
       address this gap, Embassy Kyiv conducts a regular weekly program designed to inform
       locally employed staff about policy changes


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between March 25 and April 12, 2013, and in
Kyiv, Ukraine, between April 13 and May 7, 2013. Ambassador Robert M. Beecroft (team
leader), Lavon Sajona (deputy team leader), Richard Behrend, David Davison, Dolores
Hylander, Patricia Murphy, Shawn O’Reilly, Donna Roginski, Paul Smith, Alexandra Vega, and
Tim Wildy conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        With a population of 46 million, abundant resources, and a strategic location between
Russia and the member states of the European Union, Ukraine is a country of importance and
potential. On one hand, Moscow continues to try to draw Ukraine closer; on the other, the United
States and European Union hope to see Ukraine eventually integrate into Europe. The current
Ukrainian Government, under President Viktor Yanukovych, plays both sides—attempting to
keep the door open for closer relations with Moscow without making binding commitments,
while at the same time expressing interest in closer relations with Europe without offending
Moscow. Ukraine’s heavy dependence on Russian energy makes it hard for President
Yanukovych to maintain independence from Moscow, which leverages this relationship to draw
Ukraine into the Russia-led Eurasian Customs Union. The European Union considers
membership in this organization to be incompatible with European integration. A serious
backsliding on democratic and economic reforms under President Yanukovych, best seen in the
imprisonment of several key opposition political leaders, including former Prime Minister Yulia
Tymoshenko, has jeopardized improved relations with the United States and Europe.

        U.S. policy toward Ukraine has shifted from a goal in earlier years of achieving North
Atlantic Treaty Organization (NATO) membership to one of cooperation, where possible, on
security and nonproliferation. Ukraine participates in joint exercises with NATO and in a number
of NATO peacekeeping operations, including in Kosovo, Afghanistan, and Liberia. The United
States and Ukraine recently announced the removal of Ukraine’s remaining highly enriched
uranium in return for U.S. assistance constructing an alternative energy facility.

         Since Ukraine’s independence in 1991, U.S. assistance to the country has exceeded $3.5
billion, with FY 2013 assistance at $104 million. Ukraine is currently the 70th largest trading
partner for the United States, with two-way trade in 2011 at $3.6 billion. With some of the
world’s most fertile soil, Ukraine has attracted several U.S. agricultural firms to help increase
production. Ukraine also has potentially important shale and offshore gas reserves, which, if
developed, could provide some critically needed independence from other sources. A number of
U.S. energy firms are working with Ukraine to develop this potential option.

       Embassy Kyiv is the largest embassy in eastern Europe, after Moscow. It has 672
employees, including 165 U.S. direct hires, representing nine U.S. Government agencies. In
2012, all elements of the mission, with the exception of Peace Corps and the Office of Defense
Cooperation, moved into a new embassy compound. The mission operating budget in FY 2012
was $160.6 million.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Under the leadership of a widely admired Ambassador, Embassy Kyiv has benefited from
4 years of clear policy objectives, effective diplomacy, active public outreach, and skilled
management. The country team operates with transparency, confidence, and mutual respect. The
recent move into a new embassy compound has reinforced teamwork and operational
coordination.

        The Ambassador is vigorous and articulate in his advocacy of U.S. policies and defense
of U.S. interests. Embassy operations run smoothly, with a high level of policy and operational
unity. The inspectors noted high morale across all agencies and sections. The deputy chief of
mission’s (DCM) businesslike, no-nonsense approach effectively complements the
Ambassador’s more informal style.

        In 2012, Embassy Kyiv served as a pilot post for the Department of State (Department)
Integrated Country Strategy. The DCM chaired the Integrated Country Strategy working group,
as well as the subsequent Mission Resource Request process. The Mission Resource Request
exercise involved the mission as a whole and was based in part on Department planning
documents, including the Bureau of European and Eurasian Affairs plan. Other agencies,
particularly the U.S. Agency for International Development (USAID), played key roles. Public
diplomacy is an integral part of Embassy Kyiv’s Mission Resource Request process.

        The embassy is updating its emergency preparedness program. It will be validated by a
table-top crisis management exercise in June 2013 and an embassywide, full-scale exercise
tentatively scheduled for fall 2013.

        The DCM chairs the Equal Employment Opportunity (EEO) program. Under his
leadership, the U.S. direct-hire and locally employed (LE) EEO counselors are well trained and
motivated. EEO information is posted prominently throughout the embassy. There are no open or
active cases at present.

       The Ambassador is an enthusiastic advocate of public diplomacy and community
outreach, with a personal focus on youth. He speaks at universities, citizen organizations, and
media outlets across the country, emphasizing the need for new generations to press for greater
democracy in a society with an authoritarian past and a tradition of corruption. OIG inspectors
witnessed several well-received public presentations conducted by the Ambassador.

        The first- and second-tour (FAST ) program is overseen by the DCM and managed by the
assistant management officer. The embassy has some 40 FAST generalists and specialists. The
FAST program offers them opportunities to develop a variety of professional skills, including
note-taking, public speaking and outreach, drafting cables and speeches, briefing high-level
contacts, and writing employee evaluation reports. FAST members also benefit from mentoring
from senior employees, rotation among sections, control officer opportunities, country team
participation, and community service.



                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting, Analysis, and Advocacy

        Embassy Kyiv generates prolific high-quality and timely reporting. The political and
economic sections produce most of the embassy’s reporting. Both sections are well managed,
have motivated, collaborative staff, and enjoy productive relations with the front office. The
political section’s reporting balances internal affairs and foreign relations keyed to U.S. interests,
including elections, human rights, politically motivated prosecutions, and relations with the
European Union and Russia. Economic reporting coverage includes business climate, energy,
and intellectual property.

        The embassy’s analytical products reflect extensive relationships and deep knowledge of
Ukrainian politics and institutions; finished products are clear and relevant. Reports typically
contain embassy commentary and are often drawn from multiple sources, which helps explain
the larger context and its significance. Embassy Kyiv makes clear what it thinks and where it
stands. Its conclusive interpretation of events and proposals for U.S. positions distinguishes its
analysis and enhances Washington’s overall understanding. The OIG team shares Washington
readers’ uniformly high opinion of the embassy’s reporting and analysis.

        The Ambassador, DCM, and embassy staff advocate with Ukrainian counterparts across
the spectrum of U.S. interests. Two examples are illustrative. For the 2012 parliamentary
elections, the embassy mounted an election monitoring and reporting operation Ukraine’s 27
administrative districts. The political section trained embassy staff and set up teams that included
representatives from other embassies. The Department congratulated Embassy Kyiv for its
coverage, which established a factual basis for expressing U.S. concerns and mapping post-
election engagement. Although a cap on internal travel has not yet had an effect, if sustained it
would prevent full coverage of the 2015 presidential elections.

       Sustained embassy advocacy resulted in the passage of legislation in 2012 that enables
foreign energy companies to obtain rights through a transparent tender process, thereby
removing a prohibitive obstacle to investment. The embassy continues to assist individual U.S.
firms.

Commercial Promotion

        Embassy Kyiv commits ample time and energy to support U.S. businesses. The
Ambassador often hosts or speaks at embassy-sponsored and other events to promote U.S.
exports. Through March of FY 2013, the embassy hosted 53 events attended by more than 1,500
individuals in support of the President’s National Export Initiative. The OIG team encouraged
economic section managers to schedule staff to take the Foreign Service Institute’s new online
course, Introduction to Commercial Tradecraft, to increase their skills in this area.

       Ukraine has natural resources and an educated workforce, but weak rule of law and legal
abuses create an inhospitable business climate. Ukraine ranks 137 out of 185 countries in the
World Bank 2013 Doing Business Report. U.S. firms often ask for embassy assistance to work

                                         4
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

through difficulties with authorities. Through engagement with Ukrainian officials and public
diplomacy, the embassy provides excellent support for individual firms and for reforms designed
to improve the business climate and increase commercial opportunities for U.S. businesses.
Since 2012, the embassy has intervened with Ukrainian officials specifically on behalf of 23 U.S.
firms. The Ambassador has personally made numerous representations to senior officials,
including the president. Among its successes, the embassy obtained millions of dollars of
overdue refunds of value added taxes owed to U.S. companies.

       One shortcoming involves inadequate communication between the economic section and
the U.S. Commercial Service section, which has led to confusion about the embassy’s position
on issues of interest to individual U.S. firms. The agreed procedure, that the U.S. Commercial
Service handle exports and the economic section handle investment and market access, has not
eliminated errors neither has monthly meetings of the embassy’s interagency commercial
working group, which is chaired by the DCM.

       Better information sharing, such as mutual access to calendars and shared case logs,
would improve the situation. Before the inspection, the economic section developed several
measures to minimize risk of uncoordinated responses to requests from U.S. firms.

       Informal Recommendation 1: Embassy Kyiv should implement measures to improve
       coordination between the economic and commercial sections.

Innovative Practice: Protection of Intellectual Property

Innovative Practice: A contest among university students promotes protection of intellectual
property rights.

Issue: Ukraine has inadequate intellectual property rights laws and weak enforcement. Piracy is
rampant. Much of the public and officialdom see intellectual property rights protection as serving
foreign commercial interests. The challenge for U.S. diplomacy is to help Ukrainians make a
case that intellectual property rights protection will support indigenous innovation and economic
growth.

Response: Embassy Kyiv successfully competed for a grant of $10,940 from the Department’s
Fund for Innovation in Public Diplomacy to sponsor a contest among teams of students from
Ukrainian universities. The teams wrote academic papers that assessed the impact on their
country’s economic growth should Ukraine adopt comprehensive intellectual property rights
protection. The economic and public affairs sections collaborated in designing and implementing
the project.

Result: Teams of five students from nine universities submitted papers. A panel of nine
judges—four from the embassy and five from the local artistic and academic communities—
selected one winning team from Kyiv and one from outside Kyiv. The Ambassador hosted a
reception for the winning teams, with invited guests from the government, parliament, and
intellectual property rights communities. The embassy awarded iPads to the winning students,
and will disseminate their papers.

                                        5
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Law Enforcement and Rule of Law

        Law enforcement and rule of law rank high among U.S. interests in Ukraine. The country
is a haven for cyber crime and criminal infiltration into the U.S. Diversity Visa program. U.S.
assistance supports prosecutorial reform and enhancement of law enforcement capabilities.

         Embassy Kyiv has two elements devoted to law enforcement and the rule of law: the
office of the legal attaché and the international narcotics and law enforcement section. The legal
attaché’s principal objective is to develop liaison relationships with Ukrainian law enforcement
agencies to aid investigations. The international narcotics and law enforcement section manages
assistance programs to strengthen administration of justice and law enforcement. The sections’
activities are complementary; collegial, productive relations are the rule, both between them and
with other sections. The Bureau of International Narcotics and Law Enforcement-funded resident
legal advisors from the Department of Justice, Office of Prosecutorial Development, Assistance,
and Training, in collaboration with USAID, drafted Ukraine’s new code of criminal procedure.

        The DCM chairs the embassy’s law enforcement working group, which meets every
other month. Ongoing, informal collaboration among embassy sections, and the front office’s
practice of convening staff as necessary to deal with immediate issues, preempt the law
enforcement working group. Coordination is sufficient, given front office attention to the issues
and productive relations among different mission elements.

Foreign Assistance

        The $104 million in assistance to Ukraine budgeted for FY 2013, encompasses a number
of accounts, programs, and objectives, including democratic governance, justice sector reform,
health, reform of the military, energy security and economic growth, and preventing proliferation
of weapons of mass destruction. Washington and the embassy completed a strategic review of
assistance in 2012. Congressional directives, presidential initiatives, and U.S. participation in the
international commitment for Chernobyl safety account for about 25 percent of funding. The
embassy’s FY 2015 Mission Resource Request seeks to consolidate programs, mostly by
reducing spending on economic growth initiatives, in anticipation of reduced assistance levels by
about 9 percent.

       USAID and several other foreign-assistance agencies and Department program bureaus
have a presence at the embassy. Since USAID’s move to the new embassy compound in 2012
and the arrival of a new USAID director, internal collaboration has significantly improved. The
embassy coordinates activities and planning effectively with Washington through regular
conference calls with the Bureau of European and Eurasian Affairs and USAID.

       Program officers meet frequently with other donor embassies and international
organizations. For example, the economic section and USAID have joined with other donors to
challenge a government proposal that would add onerous requirements for providing aid.

        The economic counselor serves as mission assistance coordinator, and the economic
section prepares foreign assistance planning documents, including the operational plan and

                                         6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

performance plan and review. Participants meet monthly or as needed. This year, the embassy
established several sector working groups to increase coordination.

President’s Emergency Plan for HIV/AIDS Relief

       The President’s Emergency Plan for HIV/AIDS Relief (PEPFAR) program in Ukraine
addresses a growing national epidemic. Funding has tripled in the past 3 years to about $25
million. The program aims for sustainability by focusing on prevention and increasing the host
government’s capacity. The Department is in the process of hiring a PEPFAR coordinator for
Ukraine. In the meantime, USAID coordinates among multiple PEPFAR implementing partners
in country: the Centers for Disease Control and Prevention, Department of Defense, Office of
Defense Cooperation, Peace Corps, and USAID, which collaborate well within their respective
roles.

Nonproliferation and Related Assistance Programs

        The United States furnishes assistance to Ukraine for several programs to prevent
proliferation of weapons of mass destruction and to support other types of arms control,
disarmament, and civilian nuclear security. These programs advance critical security interests for
the United States, Ukraine, and the wider region. They include removal of Ukraine’s highly
enriched uranium (completed in 2012), destruction of ballistic missile motors, securing
dangerous pathogens, development of an effective export control regime, containment of leakage
at the Chernobyl nuclear site, and storage of spent reactor fuel. Embassy Kyiv’s engagement
with Ukrainian authorities has been instrumental in several successes.

        Programs are dispersed across U.S. Government agencies and Department bureaus and
are undertaken with a variety of Ukrainian counterparts, international organizations, and other
third-party implementers. Some are funded outside the foreign assistance budget; there is no
consolidated tally of all U.S. Government spending of these programs. The Department of
Energy, Defense Threat Reduction Agency, and the Department’s Export Control and Related
Border Security program maintain resident American and local staff in the embassy to oversee
their assistance. The Department manages other programs from Washington.

         Although the responsible elements in Embassy Kyiv communicate well, the decentralized
program structure and absence of a formal coordination mechanism pose a risk of duplicative
activities or gaps. Different U.S. Government agencies work, in some instances, with the same
Ukrainian agencies, or provide similar assistance. Semiannual meetings of the U.S.-Ukraine
Nonproliferation Working Group do not review all pertinent U.S. assistance.

       Informal Recommendation 2: Embassy Kyiv should establish a nonproliferation and
       arms control working group to share information on assistance programs.

Leahy Vetting

        In recent months, the percentage of Embassy Kyiv’s late submission of names for Leahy
vetting had been running above the average for other embassies in Europe. In response, the

                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

political section’s office management specialist and an eligible family member provided training
to submitting sections and revamped the procedures to expedite submission of names into the
INVEST system. These two individuals are trained on the system and have coordinated the new
procedure with vetting staff in the Bureau of Democracy, Labor, and Human Rights, and the
Bureau of European and Eurasian Affairs.

Political and Economic Section Staffing

         All American positions are language designated for either Russian or Ukrainian. Very
little English is spoken in Ukraine, even among government officials and business leaders. All
staff reported that they use the two local languages; many participate in the post language
program. Retaining all language designated positions for the sections is appropriate.

        The embassy’s Mission Resource Request for FY 2015 requests establishment of a mid-
level officer position to handle the economic section’s environment, science, health, and
technology portfolio, in place of an eligible family member. Although several U.S. institutions
have begun activities or shown interest in science and technology collaboration with Ukraine, the
Department has not reciprocated the embassy’s interest in developing this aspect of the
relationship. The Bureau of Oceans and International Environmental and Scientific Affairs
recently extended the interval between meetings of the bilateral science and technology working
group from annual to biennial. The annual cost of an American officer position is some 10 times
greater than that of an eligible family member. The OIG team concluded establishing of a new
officer position is unwarranted, and that an eligible family member should continue to manage
the science portfolio.

        A scheduling conflict with language training prevented the embassy’s labor officer from
taking labor training at the Foreign Service Institute. It is important for officers to receive
training in the functions they are expected to perform.

       Informal Recommendation 3: Embassy Kyiv should arrange for the successor to the
       current labor officer to take Foreign Service Institute course PL-103, Labor Officer Skills,
       and enable the incumbent to take this course if he has occasion to travel to Washington.

Public Affairs Section

        The public affairs section (PAS) enjoys the confidence of the front office, other embassy
sections, and Washington consumers. The budget is sufficient for the multiple programs PAS
manages. PAS works effectively to publicize the U.S. Government’s extensive assistance
programs in Ukraine. A travel cap imposed by the Department in December 2012 is eroding the
section’s ability to monitor public diplomacy grants and its extensive network of 29 American
Spaces.




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Information Unit

       The information unit has two American officers and six LE staff members. The senior
information officer focuses on traditional media and direct support for the front office; his deputy
oversees a unit that works on social media.

        The information officer tracks and analyzes press reports on economic and political
issues and examines trends in media and Internet freedom, including implications for democracy
and the rule of law. He and his staff also conduct investigative journalism contests and design
training programs to foster more independent and responsible journalism.

        Senior LE press staff alternate with counterparts in the political and economic sections in
watching Friday night political talk shows and providing written analyses for the front office.
The effort requires overtime but does not merit the effort and expenditure because items of
significance are also be carried by the news media.

       Informal Recommendation 4: Embassy Kyiv should discontinue spending on overtime
       to monitor Friday evening talk shows.

        The assistant information officer coordinates a missionwide social media effort to engage
Ukraine’s growing population of Internet users. He and his three-person team maintain the
embassy’s bilingual Web site, Facebook, YouTube, and Flickr pages. They also maintain an
active embassy blog for policy discussion and an electronic mailing list for the distribution of
policy materials to mission contacts. Almost every week, a different officer begins a new blog
discussion with an initial entry on a policy-related subject, such as intellectual property rights or
HIV/AIDS prevention, and coordinates the resulting discussion throughout the month.

        In 2012 the unit initiated a series of regional “tech camps” to build social media
capacities in the nongovernmental organization and education communities. Alumni are active in
followup discussions with the embassy.

Cultural Unit

        The cultural unit has 3 American officers and 15 LE staff members and conducts multiple
academic and short- and long-term exchange programs. The unit also hosts a wide range of
cultural programs and invites experts, many recommended by the Ambassador, on topics of
bilateral interest.

       A registered foreign representative office of the Institute for International Education
manages the Fulbright scholarship program. In a promising development, PAS and the Kyiv
Fulbright office expect to sign a memorandum of understanding with the Ukrainian Ministry of
Education and Science, under which Ukraine will fund a number of science- and technology-
focused Fulbright scholarships for Ukrainian graduate students.




                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

English-Language Programs

        A regional English language officer, whose portfolio includes Ukraine and five nearby
countries, is based in Kyiv. His primary focus is improving the quality of English-language
teacher training in Ukraine. He also oversees the post’s small but expanding English Access
program, which provides English-language instruction to disadvantaged youth. The officer works
closely with the Peace Corps, which has shifted its focus to teaching English, especially in rural
schools. As a consequence, the Fulbright English Teaching Assistant program uses resources that
could be better employed elsewhere within the Fulbright portfolio.

       Informal Recommendation 5: Embassy Kyiv should ask the Bureau of Educational and
       Cultural Affairs to eliminate the English Teaching Assistant program in Ukraine and
       reprogram funds to support other Fulbright student and scholar programs in Ukraine.

The American Spaces Network

        PAS closed its information resource center when it moved to the new embassy compound
in 2012. It redirected the core focus of center staff to managing and improving a network of 29
American Spaces, most located in provincial libraries in Ukraine’s 27 administrative districts.
The Space represents a key public diplomacy platform in U.S. efforts to reach the more than 90
percent of Ukrainians who live outside the capital city. When PAS establishes its 30th American
Space later this year in Zaporizhzhya, it will have the largest American Space network in the
world. PAS Ukraine has the personnel and financial resources to sustain the network, and
officers and staff are working to improve the system through greater financial support and
training. In FY 2012, PAS committed more than $286,000 to its Space operations. During the
course of the inspection, PAS learned that Washington—in recognition of the embassy’s
previous success—had increased FY 2013 funding to nearly $500,000.

        Grants Policy Directive 16 requires that a grants officer representative “maintain contact
with the award recipient through site visits and other liaison/oversight activities.” For PAS Kyiv,
with 80 percent of its grant recipients living outside of the capital, monitoring grantee
performance is difficult. According to post statistics, PAS staff was able to visit only 74 of 239
grantees outside Kyiv in FY 2012 because of the travel cap. The staff tries to visit each Space at
least once a year, but the size of the network makes this difficult. In FY 2012, PAS staff visited
only three-quarters of the Spaces. Maintaining this level will become even more difficult this
year as a result of a Department-mandated travel cap.

Recommendation 1: Embassy Kyiv should send a formal request to the Office of the Under
Secretary for Management to issue revised guidelines defining travel to monitor grantee
performance as mission-essential and thus exempt from the travel cap laid out in 12 State
120785. (Action: Embassy Kyiv)

       PAS Kyiv has an ambitious plan to establish, by mid-2014, a Kyiv American Center,
which it envisions as a “tech-savvy, cutting-edge, and hyper-connected place” to engage young
Ukrainians. Nearly $3.5 million has been set aside to convert and furnish a centrally located
building that formerly housed the consular section. The public affairs officer maintains that

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

additional staffing will be needed for the Center to remain open on evenings and weekends,
when it can attract the largest audiences. In the current budget environment, funds for additional
staff are unlikely.

       Informal Recommendation 6: Embassy Kyiv should reexamine position descriptions
       and work hours for the public diplomacy locally employed staff to identify opportunities
       for existing staff members to provide needed coverage at the planned Kyiv American
       Center.

Grants Management

       PAS Kyiv has an extensive but small grants program. In FY 2011 and FY 2012, PAS
spent nearly $3.1 million on grants—some from its own budget and some from appropriations
under the Assistance for Europe, Eurasia and Central Asia (AEECA) program.

         AEECA’s program in Ukraine had an FY 2012 budget of $2.4 million, with $800,000
designated for its Democracy Commission Small Grants program and $400,000 for its Media
Development Fund. Grantees undergo a competitive selection process. The remainder of the
AEECA budget (excluding $230,000 for salaries, travel, and training for the five-person grants
staff) supports a variety of programs that PAS Kyiv develops and oversees.

        The OIG team examined a random sampling of 16 grants files maintained by the AEECA
grants staff and found them to be complete. The OIG team was impressed by the standardized
formats developed by AEECA’s LE staff for interim and final program reports. These formats
provide grantees with a concrete guide on what they should report, thereby sparing staff the need
to contact grantees to obtain missing information. Another useful innovation was a grantee
performance evaluation, completed by the grants officer representative, including a
recommendation on whether to accept further applications from the grantee.

       Informal Recommendation 7: Embassy Kyiv should share the program and budget
       formats developed by its grants staff with other missions that receive Assistance for
       Europe, Eurasia and Central Asia funds.

         A random sampling of FY 2012 and FY 2013 public diplomacy grants produced mixed
results. Files on the American Corner grants program were excellent, but those on other public
diplomacy grant programs were unsatisfactory. Documentation was random, authorization and
appropriation data was frequently missing or incorrect, and evidence of followup with grantees
was hit-and-miss. Grants officers need to require public diplomacy LE staff acting as grants
officer representatives to fulfill their responsibilities after a grant has been awarded. The public
affairs officer is aware of the deficiencies, many of which occurred before his arrival. He has
arranged for LE staff to take online training offered by the Foreign Service Institute.

       Informal Recommendation 8: Embassy Kyiv should provide additional grants training
       to all locally employed staff members in the public affairs section who serve as grants
       officer representatives.


                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Consular Operations

        Embassy Kyiv’s midsized consular section is well managed, productive, and enjoys
excellent morale. The move to the new embassy compound in March 2012 provided the section
with a well-designed facility that enables efficient work at the highest professional standard. The
section is adequately staffed for the current workload, but continued increases in visa workloads
will likely require an increase in staff within the next few years. The section chief and deputy
chief provide FAST officers with opportunities to rotate through a number of different functions
and participate in consular outreach trips and similar activities. The section does not have a
formal training program, and the staff would benefit from more training, especially on visa fraud.

       Informal Recommendation 9: Embassy Kyiv should implement a training program for
       consular section staff.

American Citizens Services

        The American citizens services unit, managed by a mid-level consular officer, handles
complex cases competently and with compassion. The consular chief assists with politically
sensitive issues. The Social Security Administration classifies Ukraine as a country that requires
exceptional processing. Each beneficiary must register each month in person at the consular
section in order to receive benefits. The unit undertakes frequent outreach trips to support the
American citizen population in this large country, often combining this outreach with other
embassy priorities in a cost-effective manner.

Immigrant Visas

        The immigrant visa unit is productive and handles a diverse caseload. The recent addition
of a second interviewing consular officer has enabled the unit to handle the case volume with
minimal delays.

Diversity Visas

        In March 2012, Embassy Kyiv began processing Ukrainian diversity visas previously
handled by Embassy Warsaw. The program allows citizens of eligible countries to enter a lottery
for a chance to apply for a U.S. immigrant visa. The consular section has scheduled
approximately 2,000 diversity visas for interviews in 2013. Painstaking work by the fraud
prevention unit and the assistant regional security officer for investigations has produced a
detailed portrait of a pervasive and sophisticated fraud scheme affecting the Diversity Visa
program in Ukraine.

       Organized fraud rings masquerading as travel agencies have taken control of the
Diversity Visa program in Ukraine. They buy, steal, or obtain from public sources personal
information about Ukrainian citizens, especially those living in western Ukraine. They use this
information to enter these citizens’ names in the online Diversity Visa program Web site, often
without their permission or awareness. In addition, other Ukrainian citizens willingly provide


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

personal information to the fraud rings for entry into the program but are usually unaware that
the fraudulent “agencies” continue to enter them year after year.

         Department practice is to provide applicants with a confirmation number once they
complete the diversity visa entry form online on the Department-run electronic diversity visa
Web site. The instructions state that the applicant should use this number to check on the status
of the entry, typically after May 1 of the program year. In Ukraine, since the fraud ring makes
the entry into the online system, only the fraud ring has the confirmation number and can check
to see if the entry was selected to participate in the Diversity Visa program. The fraud ring then
contacts hundreds of Ukrainian selectees and requires them to sign a contract promising to pay
up to $15,000 to obtain the confirmation number and to pursue an immigrant visa application. If
the selectee is interested but cannot pay, the fraud ring may insist that he or she enter into a sham
marriage with a person who has expressed interest in immigrating to the United States. In such a
case, the “spouse” pays the agency a substantial amount of money to be paired with a diversity
visa selectee.

        A fraud ring may also require legitimately married diversity visa winners to obtain
divorce certificates, engage in a sham marriages, and leave minor children behind in order to
emigrate to the United States. Eventually, the diversity visa winners may petition for the real
spouse and children to join them. Kyiv’s immigrant visa unit sees many similar cases, indicating
that this practice has been occurring for years. The fraud ring enters the names of a significant
percentage of the population of western Ukraine (Embassy Kyiv estimates as much as 80
percent), effectively preventing interested individuals from filing their own applications, since
the Diversity Visa program prohibits duplicate entries, a function partially performed by the
Department’s computer system that can automatically search for and delete duplicate
applications.

        The fraud ring's involvement continues after the selectee enters the United States. The
fraud ring applies for the selectee’s social security card and retains both the card and the social
security number for misuse. Selectees are required to sign a contract (legally binding in Ukraine)
with the fraud ring, stipulating a continuing obligation to pay the fraud ring or to work
essentially as an indentured servant to repay what is “owed.” Failure to pay has led to threats
against family members in Ukraine.

        The consular section, in coordination with the Bureau of Consular Affairs, has taken a
number of steps to combat this fraud. The embassy’s fraud prevention unit investigates all
diversity visa cases. The assistant regional security officer for investigations keeps a file of
Internet protocol addresses associated with fraud rings, but the organizations continually change
their Internet protocol addresses to foil these efforts. In order to provide less time for fraud rings
to arrange sham marriages, the consular section no longer allows applicants for diversity visas to
reschedule the appointment set for them by the Kentucky Consular Center.

        Interviews of diversity visa applicants are detailed and lengthy and follow a frequently-
varied script, in an effort to stay one step ahead of the fraud rings’ careful coaching of the
applicants. Despite these efforts, which have had a significant deleterious effect on the efficiency


                                        13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

of the section, fraud continues. The Diversity Visa program is reviewed yearly by the Bureau of
Consular Affairs resulting in a number of changes to the program in an attempt to deter fraud.

        Fraud rings have exploited the automated process used to notify applicants that they have
been selected for the Diversity Visa program in the Ukraine. One possible solution would be for
the Department to send confirmation numbers only to the consular section in Kyiv for Ukrainian
selectees, with the consular section then notifying those selected for the program. This process
would add work for the consular section but less than is now required to combat fraud. The
consular section estimates that between 50 and 80 percent of applicants do not have their correct
address listed on their application (because of the fraud rings’ actions), but the section can use
existing online resources in Ukraine to locate and notify selectees.

Recommendation 2: The Bureau of Consular Affairs should implement a program to address
widespread diversity visa fraud in Ukraine in time for the 2015 Diversity Visa program. (Action:
CA)

        The nonimmigrant visa unit adjudicates a growing volume of visas of various categories,
some of which are rife with fraud. Wait times for appointments are minimal. The unit handles a
large volume of crew visas and summer work travel visas in addition to the more common visa
categories. The visa referral process works well. The consular section chief briefs new embassy
officers and maintains excellent records related to referrals. The Visas Viper committee meets
regularly and submits reporting cables on time.

Global Support Strategy Contract

        The nonimmigrant visa unit’s most significant challenge is managing the Global Support
Strategy contract, a worldwide contract to provide services such as fee collection, appointments,
and document distribution for consular sections. This contract was implemented in Kyiv in
September 2012. The consular section has a sound strategy to address problematic passport
delivery and information provision issues under the contract, but the summer work travel issue is
difficult to resolve. The Summer Work Travel program allows qualified post-secondary students
residing outside the United States to come to the United States to work and travel during their
summer vacation.

        Because of the high level of fraud in Ukrainian summer work travel visa applications, all
summer work travel documents are reviewed by the fraud prevention unit. Ideally, and until the
inception of the Global Support Strategy contract, this review took place prior to the interview.
When the Global Support Strategy contract started, the consular section worked with the
contractor for several months in an attempt to have the contractor provide the required
documents for summer work travel applicants in advance of the interview.

        The protracted discussions did not lead to the desired outcome, which forced the consular
section to develop a new method of handling summer work travel applications immediately prior
to the program start. This method requires the nonimmigrant visa staff to scan the documents
into the automated system when the applicants arrive for interview. The applicant is interviewed,
and the case is passed to the fraud prevention unit for a post-interview fraud check, which takes 2

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

weeks. Only after the fraud checks are completed does the adjudicating officer have adequate
information to adjudicate the case. If the fraud check reveals information requiring clarification,
the applicant must return for a second interview. Officers and staff have to open and review each
case at least twice, seriously impairing the efficiency of the busy unit.

Recommendation 3: The Bureau of Consular Affairs should engage with Embassy Kyiv to
document their exact requirements for summer work travel visas and develop a process to ensure
that documents for summer work travel visa applicants are entered into the nonimmigrant visa
system prior to visa interview. (Action: CA)

Fraud Prevention Unit

        The fraud prevention manager leads an adept staff that concentrates its efforts on large-
scale fraud rings, many of which operate with impunity. Fraudulent documents are inexpensive
and easily obtained. Working closely with the assistant regional security officer for
investigations, the fraud prevention unit strives to counter fraud. The unit produces detailed
validation studies that pinpoint programs or populations of concern and provide valuable analysis
of fraudulent activities and travel patterns to the consular section and the Department. In 2012,
the Bureau of Consular Affairs downgraded the fraud prevention manager position to entry-level.
The complexity and pervasiveness of fraud in Ukraine and the need to supervise seven LE staff
members requires the expertise of an experienced mid-level manager. The consular chief
concurs.

Recommendation 4: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources and the Bureau of European and Eurasian Affairs, should return the fraud
program manager position to the FS-03 level. (Action: CA, in coordination with DGHR and
EUR)




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
             Agency                U.S.          U.S.        Foreign    Total     Total
                                  Direct-       Local-       National   Staff    Funding
                                   Hire          Hire         Staff              FY 2012
                                   Staff        Staff
Department of State
Diplomatic &Consular Program            55           14            61     130     $5,731,377
ICASS                                    9            9           284     302    $16,255,900
Public Diplomacy                         7            1            26      34     $1,687,800
Diplomatic Security                      8            1            11      20     $1,833,129
Marine Security                          6            0             4      10      $161,686
Representation                           0            0             0       0        $55,045
International Narcotics & Law            3            0             7      10     $5,940,590
Enforcement
OBO                                         0            0          2       2     $8,293,911
Department of Agriculture
Foreign Agriculture Service                 1            0          3       4      $260,900
Department of Defense
Defense Attaché Office                  14               0          7      21     $1,744,545
Office of Defense Cooperation            3               0          3       6      $501,340
Bilateral Affairs Office                 1               0          6       7      $800,600
Maritime Affairs Officer                    1            0          0       1        $2,000
Partnership for Peace                       0            0          1       1       $30,000
Department of Justice
Federal Bureau of Investigation             4            0          0       4      $202,000
U.S. Commercial Service                     1            0          9      10      $513,631
PEPFAR ICASS                                0            0          0       0        $10,000
CDC PEPFAR Funds                            2            0          5       7     $4,585,000
Other PEPFAR Funds                                       0                       $11,553,000
USAID Operations                        37               0         40       77    $7,337,852
USAID Programs                                           1         40      41    $77,261,003
Department of Energy                        1            0          2        3    $8,634,600
Force Protection Detachment                 1            0          1        2     $391,939
Travel                                                                               $70,000
Operations &Maintenance                                                            $180,000
ICASS                                                                                $65,939
New Embassy Compound                                                                 $76,000
Construction Billet

                                       16
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

 Department of Treasury                        1            0            0         1      $467,481
 Peace Corps                                   3            0            2         5     $5,270,000
 Centers for Disease Control and               2            0            5         7      $412,500
 Prevention
 Defense Threat Reduction                      2            0            3         5       $273,360
 Agency
Totals                                       162           26          522       710   $160,603,128
Source: Embassy Kyiv

Management Section

        Embassy Kyiv’s management section provides very good services to a large Department
contingent and to 15 other agencies. In 2013, the embassy’s International Cooperative
Administrative Support Services (ICASS) scored above 4.0, on a 1-5 scale, in all categories
except three. The 2013 ICASS scores for residential operations maintenance, the community
liaison office, and leasing were only a few tenths of a percentage point below 4.0.

       The management section has good leadership and a skilled LE staff. Funding is adequate,
communication is effective, and office morale is good. LE staff job satisfaction is high but LE
morale is lower because of inflation and the continued loss of purchasing power. A Department
wage freeze is still in effect and prohibits annual wage increases.

        Completed in 2012, the new embassy compound includes the chancery, Marine House,
warehouse, facilities and maintenance workshops, USAID annex, and a parking garage. There is
ample office space for all agencies. The office space is functional and meets Department
standards. The new chancery project, which cost $244 million, was completed on time and under
budget.

       The Department and USAID management platform consolidation was implemented in
2012. Approximately 24 USAID administrative positions were crosswalked to the embassy’s
ICASS platform. There were a few residual items, including USAID’s cashiering services, a
designated driver for the USAID director, and two USAID vehicles used for the director’s
transportation, that had not been consolidated.

        Management controls are in place and working properly in the management units. Prior
to the inspection, a team from the Regional Support Center Frankfurt conducted a review in
March 2013 and August 2012. The Frankfurt team found no major issues with management
operations. The management section implemented most of the review team’s recommendations
and suggestions for improvement.

Rightsizing

       Embassy Kyiv is scheduled for a 5-year rightsizing study. The last rightsizing study was
completed in 2006 and revised in 2009 when USAID expanded its presence in Kyiv. Since the
2007 OIG inspection, U.S. direct-hire staffing increased by 42 USAID positions. The number of
LE staff positions increased by nine.
                                      17
                          SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

Financial Management

       The financial management office operates effectively. The financial specialist is
designated as an LE staff certifying officer with authority to certify vouchers up to $50,000.
Vouchers are processed in a timely manner.

         Two unliquidated obligations on the books need to be removed. They relate to value-
added tax collections on the chancery and USAID annex during the construction of both
facilities. Since October 2012, there has been no activity with these obligations, which together
total $5.5 million. The chancery value-added tax reimbursement account contains over $4.3
million and the USAID annex building account contains almost $1.2 million. Embassy-provided
documentation indicates that ongoing conversations with the Bureau of Overseas Buildings
Operations (OBO) since January 2013 have not led to any action.

Recommendation 5: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should deobligate funds maintained in the chancery and U.S. Agency for
International Development annex accounts related to the construction of these facilities on the
new embassy compound. (Action: OBO, in coordination with Embassy Kyiv)

        A review of the Ambassador’s representation and official residence expense vouchers
indicated that overtime payments, which should be charged to representation events, are being
charged to the official residence expense account. As noted in Department telegram 188617
(October 1998), “when official residence household staff serve at representation functions, any
extra pay over their regular salary is charged to representation, not official residence expense.”

Recommendation 6: Embassy Kyiv should charge official residence staff overtime worked
during representational events to the representation account. (Action: Embassy Kyiv)

Cashiering

        During the OIG inspection the financial management officer performed an unannounced
cashier reconciliation on the Class B cashier and the alternate. While the cash accounts
reconciled, several issues require attention.

             Ukrainian currency is not easily sold or purchased and subject to government restrictions.
 The Ukrainian local banking system is antiquated. Embassy Kyiv is one of the few missions in
 the world to operate without a U.S. disbursing officer account, which means that most payments
 are made in cash, because electronic funds transfer payments are not possible. As a result, the
 embassy’s cash accountability is                                     with more than                    in cash available during the
                                                           [Redacted] (b) (5)
                                                   [Redacted] (b) (5)                [Redacted] (b) (5)


 cash reconciliation, which is a reduction from a recent authorization of                                                    Despite this
                                                                                                                 [Redacted] (b) (5)
                                                                                                          [Redacted] (b) (5)


 reduction, the actual accountability of the cashier at the time of the inspection was approximately
                   including                    in a local bank account. The dollar portion of the bank account is
[Redacted] (b) (5)           [Redacted] (b) (5)


 used to accept dollar transfers from Global Financial Services in Charleston. The transfers are
 then converted to local currency. The local account also contains funds from on-site and off-site
 consular fee collections. Some in-country fund transfer payments can be made from this local
 currency account.

                                                  18
                                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Ukrainian banking laws prohibit the local bank used by the embassy from establishing a
branch location inside the chancery. To illustrate the need for cash, the cashier had a
                                                                                        [Redacted] (b) (5)



voucher for transportation expenses that needed to be paid out the next day to a group of
Ukrainian military students traveling to the United States. The mission is taking steps to reduce
its need for cash and recently began issuing debit travel cards, instead of cash travel advances, to
the LE staff for travel outside Ukraine.

       Global Financial Services is trying to find a way to make a U.S. disbursing officer’s
operation work in Kyiv.

       Subcashier advances are held appropriately to a minimum, and temporary advances are
returned and cleared promptly to the cashiers. The cash reconciliation revealed that an excessive
number of Ukrainian coins are maintained by the alternate and the Class B cashiers.

        Informal Recommendation 10:         Embassy Kyiv should reduce the amount of
        Ukrainian coinage maintained by the cashiers.

        Despite consolidation on a single compound, USAID continues to maintain its own
cashier operation. USAID personnel expressed the desire to consolidate their operation with the
embassy’s operation, but the embassy cashiers’ current workload precludes consolidation at
present. The Department’s cashiering system will be replaced in June 2013 with a new, more
flexible system. This change would allow for consolidation of embassy and USAID cashiering
operations.

Recommendation 7: Embassy Kyiv should consolidate the U.S. Agency for International
Development cashier operation into the embassy cashier operation once a new cashiering system
is installed. (Action: Embassy Kyiv)

International Cooperative Administrative Support System

       ICASS and its components, including the council, the budget committee, and working
groups, operate effectively. The ICASS chairperson is serving her third year. She should not be
asked to extend for a fourth year due to the requirement that the job rotate among agencies.

        Informal Recommendation 11:        Embassy Kyiv should elect an International
        Cooperative Administrative Support System council chairperson from a different agency
        during the next election.

        ICASS council meeting minutes are well maintained but were not posted on the
embassy’s intranet site until after the inspection began. The budget committee minutes also need
to be posted to the site. ICASS information is located under the financial management icon on
the intranet site; it does not have its own location.

        Informal Recommendation 12:        Embassy Kyiv should move the International
        Cooperative Administrative Support Services information to a section of its own on the
        intranet site.

                                         19
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Human Resources

       The human resources office is an effective operation.

Wage and Benefit Reviews

        The embassy is in the process of requesting a waiver to the Departmentwide LE staff
wage freeze. The embassy doubted the inflation statistics provided by the Ukrainian Government
and asked the economic section to review the “real” inflation rate in Kyiv. Based on this
information, the embassy drafted a cable to the Office of Overseas Employment in Washington,
stating that local inflation exceeds the 31 percent inflation threshold established by the
Department in February 2013. If validated, the embassy’s request could be sent to the wage
board to determine whether the LE staff in Kyiv is eligible for a pay increase. At the time of the
inspection, the Department was reviewing the request.

       The embassy is taking action on other LE staff benefit issues. These include the
conversion from an American-style leave plan to the Ukrainian leave plan, as well as a new life
and disability insurance solicitation. The embassy worked with the Office of Overseas
Employment to convert to the local leave plan before the end of 2012, but it did not receive final
approval for implementation in time for the new leave year, which began January 2013.
Consequently, the conversion cannot be implemented until January 2014.

       Under the current leave plan, when a local employee’s sick leave balance has been
depleted, his or her advanced sick leave has been exhausted, and no other paid leave category is
available, the employee is moved into a non-pay status (leave without pay), which also stops
medical insurance coverage. Unless the local employee pays the monthly medical premium, he
or she will be without medical coverage. This problem needs to be rectified on an urgent basis.

Recommendation 8: Embassy Kyiv, in coordination with the Bureau of Human Resources,
should reach agreement on a local leave plan during calendar year 2013 and put it into effect at
the beginning of 2014. (Action: Embassy Kyiv, in coordination with DGHR)

Local Employee Association

        The OIG inspection team met with the local employee association. The association
members expressed general satisfaction about their relationship with management. They cited the
proposed wage increase, efforts to implement the local leave plan, and the disability payment
plan as examples of cooperative efforts.

Overtime

       The LE staff worked more than 23,000 hours of overtime between April 2012 and March
2013. ICASS overtime alone accounted for over 15,000 hours, or $162,000. This amount is
excessive.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 13:        Embassy Kyiv should implement measures to
       reduce overtime payments. (Action: Embassy Kyiv)

        Embassy Kyiv was unable to distinguish between the amount of overtime attributable to
mission needs and overtime performed to support visiting dignitaries, whose fiscal data would be
used to reimburse the embassy for the overtime.

       Informal Recommendation 14:           Embassy Kyiv should track overtime in support of
       visits and obtain appropriate reimbursements.

        Although the Regional Support Center Frankfurt performs job classification for the
European region, since 2008 a LE human resources assistant has classified the embassy’s LE
staff positions. There were 102 classifications performed in Kyiv between 2008 and 2013. Forty-
eight were for new position classifications. The remaining 54 resulted in 36 upgrades, 4
downgrades, and 14 whose grade level did not change. LE staff classifiers are frequently
subjected to pressure from their colleagues and supervisors. The Regional Support Center
Frankfurt is able to provide rigorous reviews without employee pressure.

Recommendation 9: Embassy Kyiv should refer all grade reclassification requests to the
Regional Support Center Frankfurt. (Action: Embassy Kyiv)

Tour of Duty

        Department employees serving in Kyiv are assigned for a 2-year tour. Embassy Kyiv is a
20 percent hardship differential post. The Department and the embassy would be better served by
3-year assignments. Seven embassies with 20 percent hardship differential have 3-year tours,
including Manila, New Delhi, Accra, Dakar, and Santo Domingo. Employees, including those
from the Departments of Commerce, Energy, and Agriculture, all serve 3-year tours in Kyiv.
USAID employees have the option of serving 4 years. Cost savings would accrue to the
Department if Embassy Kyiv moved to a 3-year tour. The facilities maintenance staff would be
required to prepare fewer make-readies each year. Transportation of household effects and
personal vehicles would be required every 3 years, rather than two, for each employee. Other
cost efficiencies would also be realized.

        There have been numerous extensions in Kyiv in recent years. In 2011, 19 employees
extended; 12 of them were from the Department. In 2012, 4 of 8 extensions were Department
employees. In 2013, there have been 5 Department extensions thus far; 4 other individuals,
including one from the Department, have extension requests in progress. During the same period,
no Department employee has curtailed, except for those requiring very minor tour adjustments to
coincide with a summer departure. The overall (and unintended) impact of these extensions will
be difficult to manage: in summer 2014, the political counselor, the economic counselor, the
consul general, the regional affairs officer, the management counselor, and the public affairs
officer, will depart post. The management section will also see the turnover of the human
resources officer, the financial management officer, the information management officer, and the
health practitioner. A 3-year assignment cycle would avoid such turnovers and save money.


                                      21
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Kyiv, in coordination with the Bureau of Human Resources and
the Bureau of European and Eurasian Affairs, should evaluate whether to assign Department of
State employees to 3-year tours in Kyiv. (Action: Embassy Kyiv, in coordination with DGHR
and EUR)

Post Language Program

      The embassy has a successful post language program in both Ukrainian and Russian.
Courses are offered in a one-on-one class environment. A few group classes are also offered.
Twelve spouses participate.

         Mission policy excludes one small group of spouses: those who tested at a 2/2 or higher
level in Washington. Spouses who have tested at less than 2/2, or those who have never been
tested even though they may have a 2/2 or better, are not eligible for post language training. This
policy is inconsistent and counterproductive in its effect on the morale of the affected spouses.
Guidelines in the Foreign Affairs Handbook, 13 FAH-1 H-251 (3), state, “The post is authorized
to extend training up to a total of 240 hours for those family members who have satisfactorily
completed 100 hours of instruction, and who have a need for a higher proficiency in a primary
language of the post to meet representational requirements and to participate in community
activities.”

       Informal Recommendation 15:        Embassy Kyiv should revise its post language
       program policy to allow spouses who tested at 2/2 or better in Washington to enroll in
       post language program classes.

Staff Orientation Briefings

Innovative Practice: Reorientation of Locally Employed Staff

Innovative Practice: Reacquainting LE staff with mission policies after their original
employment briefings.

Issue: Human resources offices generally brief LE staff when they begin their careers at the
embassy. Issues such as performance management, salary and benefit policies, awards, training,
and EEO activities are on the agenda. After this original briefing, the LE staff members are not
briefed again and instead are told to read the local employee staff handbook if they have
questions. If they are proactive, they may reach out to the human resources office but,
unfortunately, most do not.

Response: Embassy Kyiv began a program to reorient the LE staff with new policy information.
Orientation is done once a week in small groups and will continue until all are briefed.

Result: Inspectors frequently encountered LE staff members during interviews who did not
understand aspects of the policies and procedures they are required to follow. These small group
briefings refocus LE staff members on policies and procedures and generally preclude their
misunderstanding of these documents.

                                       22
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The embassy does not include USAID LE staff in reorientation briefings. One employee
stated that USAID “had their own personnel section.” This is an indication, noted in the
rightsizing and consolidation section that, although significant progress has been made on the
consolidations front, there is still some work to do regarding the intricacies of implementation.

        Informal Recommendation 16:        Embassy Kyiv should include the local U.S.
        Agency for International Development staff in its policy and procedure reorientation
        briefings.

General Services Operations

        General services units, including customs and shipping, housing, motor pool, personal
property, procurement, and travel, are well run. The supervisory general services officer, who
arrived in August 2012, is an experienced and capable officer who provides good leadership to
the LE staff.

Procurement

        The procurement unit does not have a written standard operating procedure for secure
procurements. This deficiency, identified by a Regional Support Center Frankfurt review team,
has not been resolved. A secure procurement policy is needed to avoid misunderstanding on the
part of the U.S. staff on how to procure items for classified areas.

Recommendation 11: Embassy Kyiv should issue a secure procurement policy and post it on
the embassy SharePoint site. (Action: Embassy Kyiv)

Personal Property Management

       The personal property management section does a good job managing the mission’s
property, which is valued at about $16.2 million. Shortages are low, at 0.33 percent or below. In
2012, a furniture pool was implemented. The on-site warehouse and leased warehouses are well
organized. The leased warehouse is located 45 minutes from the embassy, but it can take general
services staff up to 90 minutes to reach it. The general services office is in the process of leasing
a smaller warehouse, located 10 minutes away.

Motor Pool Operations

        A missionwide vehicle utilization review conducted in 2012 resulted in directing the
motor pool unit to dispose of 23 vehicles to reduce its current fleet of 72 vehicles. In 2013, the embassy
held a public sale to dispose of 15 vehicles. Only 5 vehicles were sold, all to other embassies and
diplomats with tax-exempt status. Ukrainian residents are not allowed to purchase diplomatic
vehicles without first paying taxes that equal or exceed the current sale price. The Office of
Foreign Missions, in coordination with the embassy, sent three diplomatic notes to the
Government of Ukraine, requesting an exemption or waiving of the taxes and duties. At the time
of the inspection, the Government of Ukraine had not responded.


                                         23
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 17:           Embassy Kyiv should advertise to U.S. embassies
       its vehicles available for sale.

Motor Pool Consolidation

         The USAID director has a program-funded motor pool, including a designated driver and
2 vehicles. In accordance with the Foreign Affairs Manual, 14 FAM 430, the chief of mission
has jurisdiction over all official vehicles for business purposes and must approve vehicles for
other authorized uses. Guidelines in 14 FAM 434.2 list those types of vehicles that can be
assigned for exclusive use; these do not include the DCM or USAID director. In addition, the
Department-USAID Joint Management Board requires USAID to obtain advance approval from
the Joint Management Board and ICASS Service Center before operating a separate program-
funded motor pool. USAID motor pool guidance allows the USAID director a designated
vehicle.

Recommendation 12: Embassy Kyiv should obtain approval from the Chief of Mission, the
Department of State-U.S. Agency for International Development Joint Management Board, and
International Cooperative Administrative Support Services Center, if the U.S. Agency for
International Development director wishes to continue to use a designated driver and 2 vehicles.
(Action: Embassy Kyiv)

Customs and Shipping

         The time required to register personal vehicles in Ukraine is an issue for the customs and
shipping staff and officers. It takes 4 to 6 weeks to complete the registration. The Government of
Ukraine will not register personal vehicles for U.S. direct hires at the embassy before receipt of
their final accreditation and identification card. The embassy does not authorize the shipment of
U.S. direct-hire personal vehicles and household effects until after receipt of accreditation and
issuance of an identification card because the Government of Ukraine does not have customs
warehouse facilities to store overseas shipments. The Office of Foreign Missions has sent several
diplomatic notes to the Government of Ukraine about this situation. Embassy Kyiv believes it
will be able to improve the process and shorten the time it takes to import a vehicle.

Facilities Management

       An experienced facilities manager effectively maintains 20 U.S. Government-owned
properties. These include the chief of mission residence, a long-term lease at $144,833 annually;
15 government-owned apartments; and the new embassy compound, including the chancery, the
USAID annex, the Marine House, and the warehouse which houses facilities and maintenance
workshops. There is a funded $3.4 million OBO project to convert the decommissioned old
consular building into an American Center. There is also a $2.3 million OBO project to convert
the former Marine House into a DCM residence. Construction has not started on either project.
The completion dates for both projects is 2014.




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

U.S. Government-Owned Properties

        The embassy has 15 government-owned residences whose conditions vary from poor to
good. The roof in one building that houses three government-owned apartments and other tenants
is in need of repair. The OIG inspector observed patched water leaks in the living and dining
room, kitchen, master bedroom, and master bedroom closet of one of the top-floor units. The
master bedroom smells of mold and mildew. This winter, an officer had to vacate an apartment
while the facilities maintenance unit patched the leaks. This is the second officer that has had to
vacate the unit because of leaks. The adjacent top-floor unit also had water damage in the living
room. There is no elevator and residents must climb 90 steps to reach top-floor units. The
management counselor stated that there were 4 more apartments with similar concerns.

        Proper maintenance of these properties is difficult as costs exceed the routine
maintenance and repair budget. Many of the buildings are over 100 years old and have outdated
electrical and plumbing systems. The ownership and maintenance of the common areas,
including entryways, stairwells, roofs, and facades, are assigned to a city office that does not
exercise its maintenance responsibility. As a result, the condition of common areas is poor to
fair. The condition of common areas is also an issue in short-term leased units.

        Non-ownership of building common areas falls into a grey area about the funding
responsibilities of residential properties found in 15 FAM 633. Neither the landlords, the city
office with titular responsibility, nor OBO has a solution to address the common areas. The
embassy often faces a prolonged negotiation and bureaucratic process to get common area
deficiencies addressed. Frustrations and the resulting impact on morale are a serious concern.

Recommendation 13: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should implement a plan to identify and resolve building common area health,
safety, and maintenance deficiencies in short-term leased and government-owned apartments.
(Action: OBO, in coordination with Embassy Kyiv)

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should schedule a visit to Embassy Kyiv to assess of all U.S. Government-owned
properties and implement a plan to reuse, renovate, or dispose of them. (Action: OBO, in
coordination with Embassy Kyiv)

Future Use of the former Marine House

        The U.S. Government-owned former Marine House consists of three floors and a
basement. It is in poor condition and is used sporadically for short-term visitors. A proposed $2.5
million OBO project, now in the planning stage, would repurpose the building by converting it
into a new DCM residence, plus two separate top-floor apartments. As part of the renovation, the
first and second floors would become the DCM’s representational and living quarters. The top-
floor apartments could be used as quarters for temporary duty personnel. The front yard and
large back lot would be landscaped.




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The inspection team believes that a second option merits exploration. The current DCM
residence is also U.S. Government-owned. It has ample representational space and comfortable
living quarters. The DCM could continue to occupy it, while the former Marine House could be
converted into multiple apartment units. If, under the OBO proposal, the current DCM residence
were returned to its original configuration of three separate apartments for use as officer housing,
OBO would be required to fund the reconversion. Among other things, this reconversion could
require reconfiguring interior walls and removing a circular staircase between floors.

       The former Marine House served for decades as a multiple-unit apartment building.
Embassy demographics are changing as Kyiv becomes a more attractive post for families. The
embassy currently lacks units suitable for larger families and spends more than $70,000 annually
on such units. OIG inspectors estimate that configuring the former Marine House for multiple
apartments could yield lease cost savings of $200,000 to $300,000 annually.

        In the two scenarios below, the former Marine House would require major reconstruction.
In only one instance, would reconstruction of the current DCM residence be required.

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should conduct a cost-benefit analysis to compare converting the former Marine
House into a deputy chief of mission residence and two apartments while restoring the current
deputy chief of mission residence to its original configuration, or retaining the current deputy
chief of mission residence for use by the deputy chief of mission and converting the former
Marine House into multiple apartments. (Action: OBO, in coordination with Embassy Kyiv)

Townhouse Project

        Rental costs are high for a proposed OBO option to lease 50 townhouses from a local
builder. The project’s proposed rent of $103,900 per year per unit far exceeds current unit lease
costs of $31,200 to $72,000. Given the substantial difference in lease costs, the OIG team
believes it is prudent that OBO renegotiate its agreement, based on local market conditions.

Recommendation 16: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should renegotiate proposed rental charges per unit in its option to lease
agreement, based on current local market conditions. (Action: OBO, in coordination with
Embassy Kyiv)

Information Management

        The information management office is well managed and provides effective, professional
service to the mission, as evidenced by high marks in ICASS and OIG questionnaires. Internal
operations are solid, and the section is up to date on all standard operating practices. The
information management team successfully transitioned all employees to new systems in the new
embassy compound in less than half a day. The team is establishing the technical infrastructure
for the new American Center planned for 2014. The OIG team identified the proliferation of
dedicated Internet networks and Web sites as areas for improvement. The classified annex to this


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

report also contains recommendations concerning information management contingency
planning, radio program management, and physical security.

Dedicated Internet Networks

        Embassy Kyiv has 10 dedicated Internet networks that require service and support and
that cost $17,820 annually to maintain. The move to the new chancery and centralization of
agencies provide an opportunity to reduce the number of networks. According to information
management staff, all but a few can be eliminated without affecting operations. Per 5 FAM
872.1, the embassy is required to reduce the number of dedicated Internet networks wherever
possible. Reducing the number of terminals could save approximately $15,420 in annual
operating expenses and reduce management workload associated with running a large number of
independent networks.

Recommendation 17: Embassy Kyiv should review its dedicated Internet network operations
and consolidate or close redundant networks where possible. (Action: Embassy Kyiv)

Web Site

        The information management team is focused on migrating from local SharePoint to the
Bureau of Information Resource Management’s Washington-hosted SharePoint Web site. The
present Web site is an excellent grass-roots effort, but the mission has no project plan that
identifies the implementation steps, timeline, or opportunity for peer review. There is no
designers’ group and several links were inoperable.

       Informal Recommendation 18:          Embassy Kyiv should designate a project manager
       to oversee design, content, and maintenance of the mission’s SharePoint Web site.




                                      27
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Quality Of Life
        Morale among the American staff in Kyiv is good. The new embassy, and the colocation
of personnel from six buildings around the city, enhances camaraderie. The post language
program, the embassy employee association, schools, and the embassy dining area and snack bar
scored high on the OIG quality of life questionnaires. The medical unit and the community
liaison office received average scores.

Community Liaison Office

       The community liaison office provides adequate support to the mission community.
ICASS and OIG survey scores indicated that programming should include more activities for
families with young children. Based on customer feedback, the office changed its programming
and now provides a wider variety of activities.

Medical Unit

        The medical unit is adequately staffed and generally responsive. There were complaints
about customer service, accessibility to the medical unit, and the number of visits from the
regional medical officer. In 2012, the medical unit received customer service training in response
to customer complaints.

       Informal Recommendation 19:            Embassy Kyiv should include quality of customer
       service as a criterion for medical unit staff employee evaluations. (Action: Embassy
       Kyiv)

        Mission employees are concerned about the availability of the medical unit staff during
lunch hours. The medical unit receptionist conducts aerobics during lunchtime and the medical
unit staff is sometimes unavailable. A mission management notice, listing hours of medical
personnel availability, was sent out several months ago but did not indicate how to contact a
medical unit staff member during lunch hours.

       Informal Recommendation 20:           Embassy Kyiv should reissue a management notice
       that provides instructions on how to contact a medical unit staff member at any hour of
       the workday.

       Regional medical officer visits are insufficient. Most regional medical officers are
required to visit their assigned embassies at least quarterly. In the past 20 months, the regional
medical officer, based in Warsaw, Poland, has visited only once. There have been 30 medical
evacuations and 12 patients hospitalized at local hospitals. Given that this is the fourth largest
mission in the Bureau of European and Eurasian Affairs, more visits are needed.

Recommendation 18: The Office of Medical Services, in coordination with Embassy Kyiv and
Embassy Warsaw, should implement a regional medical officer visitation schedule to conduct
visits on a more frequent basis. (Action: MED, in coordination with Embassy Kyiv and
Embassy Warsaw)

                                        28
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Schools

        The embassy categorizes its relationship with the schools in Kyiv as excellent. Survey
scores show that parents are generally satisfied with the quality of education, the curriculum, and
extracurricular activities.

American Embassy Employee Association

        The American Embassy Employee Association works well and is adequately serving the
needs of the community. Board tours are for 18 months, and elections are staggered to provide
flexibility and training for incoming board members. The charter and by-laws were recently
revised and are current. There are more than 300 members of the association, including
American teachers, other diplomatic missions, and some LE staff are members with different
purchasing privileges, but all conform with Department regulations.
        The financial statements of the association are current. The association made a profit of
over $50,000 in 2011 but only $1,000 in 2012. According to the association treasurer, the
enactment of health and life insurance benefits for the association staff and the unexpected
markup of a bulk order from Ramstein Air Base that was not passed on to the membership were
the reasons for the decreased profit.

         The association rents two temporary duty apartments located on the top floor in the
former Marine House in downtown Kyiv. As noted earlier, the building is in disrepair, although
some efforts have been made to keep the temporary duty apartments habitable. The profit from
the rentals has decreased in each of the last 3 years as fewer temporary duty personnel are
staying in these apartments. The association could turn over the operation of these apartments to
the embassy to accommodate employee transfers if permanent housing is not ready upon their
arrival.

Recommendation 19: Embassy Kyiv should assume responsibility for maintaining and
assigning employees to the two temporary duty quarters until such time as the building
undergoes renovation. (Action: Embassy Kyiv)

        The commissary has been unprofitable for several years. Without the income from the
temporary duty quarters, the association will incur a loss. The association relies on the services
offered to members and the temporary duty apartments to maintain profitability. The commissary
profit center lost $16,909 last year. Department guidance requires all profit centers to be
profitable.

       Informal Recommendation 21:           Embassy Kyiv, through its employee association,
       should establish a plan to make the commissary operations profitable.




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        The annual chief of mission management controls statement of assurance, dated June
2012, shows that Embassy Kyiv completed a 62-page risk assessment questionnaire. The housing
program complies with FAM requirements, and all assets including vehicles were inventoried
and included in the Integrated Logistics Management System to ensure accountability and
accuracy of Department financial statements. The embassy has an effective safety, health, and
environmental program. The facilities manager conducts safety and health assessments and
abates hazards. The general services officer ensures motor pool vehicles meet Department
requirements and investigates reportable mishaps and takes corrective action. The mission meets
the Federal Managers Financial Integrity Act of 1982 management control review requirements,
which include a copy of the property management report, vehicles inventory, and a
memorandum certifying the controlled substances inventory.

        The 2012 statement of assurance identified and reported one material reportable
weakness. The emergency action plan was not up to date at the time of statement of assurance
certification. This deficiency was corrected during the inspection. The management controls
coordinator provided the inspectors with a list of 2012 reviews performed to support the
statement of assurance. Section heads discussed the results of the risk assessment and
management controls review with the Ambassador.

Travel

        Since 2009, the embassy has not issued tickets for business- or premium-class air travel.
In few instances, actual costs for lodging were properly authorized. Some business-class train
tickets were issued because of the nonavailability of coach-class tickets.

Cashiering

         [Redacted] (b) (5)
                        Although the cash verification conducted by the inspectors and a
verification recently conducted by a team from the Regional Support Center Frankfurt uncovered
no indication of abuse, [Redacted] (b) (5)
                                 Embassy Kyiv and the Department are striving to allow the U.S.
                               [Redacted] (b) (5)




Disbursing Office to make direct payments to Ukrainian vendors, but until this occurs, the
embassy will need to be vigilant in cash management.




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Kyiv should send a formal request to the Office of the Under
Secretary for Management to issue revised guidelines defining travel to monitor grantee
performance as mission-essential and thus exempt from the travel cap laid out in 12 State
120785. (Action: Embassy Kyiv)

Recommendation 2: The Bureau of Consular Affairs should implement a program to address
widespread diversity visa fraud in Ukraine in time for the 2015 Diversity Visa program. (Action:
CA)

Recommendation 3: The Bureau of Consular Affairs should engage with Embassy Kyiv to
document their exact requirements for summer work travel visas and develop a process to ensure
that documents for summer work travel visa applicants are entered into the nonimmigrant visa
system prior to visa interview. (Action: CA)

Recommendation 4: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources and the Bureau of European and Eurasian Affairs, should return the fraud
program manager position to the FS-03 level. (Action: CA, in coordination with DGHR and
EUR)

Recommendation 5: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should deobligate funds maintained in the chancery and U.S. Agency for
International Development annex accounts related to the construction of these facilities on the
new embassy compound. (Action: OBO, in coordination with Embassy Kyiv)

Recommendation 6: Embassy Kyiv should charge official residence staff overtime worked
during representational events to the representation account. (Action: Embassy Kyiv)

Recommendation 7: Embassy Kyiv should consolidate the U.S. Agency for International
Development cashier operation into the embassy cashier operation once a new cashiering system
is installed. (Action: Embassy Kyiv)

Recommendation 8: Embassy Kyiv, in coordination with the Bureau of Human Resources,
should reach agreement on a local leave plan during calendar year 2013 and put it into effect at
the beginning of 2014. (Action: Embassy Kyiv, in coordination with DGHR)

Recommendation 9: Embassy Kyiv should refer all grade reclassification requests to the
Regional Support Center Frankfurt. (Action: Embassy Kyiv)

Recommendation 10: Embassy Kyiv, in coordination with the Bureau of Human Resources
and the Bureau of European and Eurasian Affairs, should evaluate whether to assign Department
of State employees to 3-year tours in Kyiv. (Action: Embassy Kyiv, in coordination with DGHR
and EUR)

Recommendation 11: Embassy Kyiv should issue a secure procurement policy and post it on
the embassy SharePoint site. (Action: Embassy Kyiv)

                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Kyiv should obtain approval from the Chief of Mission, the
Department of State-U.S. Agency for International Development Joint Management Board, and
International Cooperative Administrative Support Services Center, if the U.S. Agency for
International Development director wishes to continue to use a designated driver and 2 vehicles.
(Action: Embassy Kyiv)

Recommendation 13: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should implement a plan to identify and resolve building common area health,
safety, and maintenance deficiencies in short-term leased and government-owned apartments.
(Action: OBO, in coordination with Embassy Kyiv)

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should schedule a visit to Embassy Kyiv to assess of all U.S. Government-owned
properties and implement a plan to reuse, renovate, or dispose of them. (Action: OBO, in
coordination with Embassy Kyiv)

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should conduct a cost-benefit analysis to compare converting the former Marine
House into a deputy chief of mission residence and two apartments while restoring the current
deputy chief of mission residence to its original configuration, or retaining the current deputy
chief of mission residence for use by the deputy chief of mission and converting the former
Marine House into multiple apartments. (Action: OBO, in coordination with Embassy Kyiv)

Recommendation 16: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Kyiv, should renegotiate proposed rental charges per unit in its option to lease
agreement, based on current local market conditions. (Action: OBO, in coordination with
Embassy Kyiv)

Recommendation 17: Embassy Kyiv should review its dedicated Internet network operations
and consolidate or close redundant networks where possible. (Action: Embassy Kyiv)

Recommendation 18: The Office of Medical Services, in coordination with Embassy Kyiv
and Embassy Warsaw, should implement a regional medical officer visitation schedule to
conduct visits on a more frequent basis. (Action: MED, in coordination with Embassy Kyiv and
Embassy Warsaw)

Recommendation 19: Embassy Kyiv should assume responsibility for maintaining and
assigning employees to the two temporary duty quarters until such time as the building
undergoes renovation. (Action: Embassy Kyiv)




                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Kyiv should implement measures to improve
coordination between the economic and commercial sections.

Informal Recommendation 2: Embassy Kyiv should establish a nonproliferation and arms
control working group to share information on assistance programs.

Informal Recommendation 3: Embassy Kyiv should arrange for the successor to the current
labor officer to take Foreign Service Institute course PL-103, Labor Officer Skills, and enable the
incumbent to take this course if he has occasion to travel to Washington.

Informal Recommendation 4: Embassy Kyiv should discontinue spending on overtime to
monitor Friday evening talk shows.

Informal Recommendation 5: Embassy Kyiv should ask the Bureau of Educational and
Cultural Affairs to eliminate the English Teaching Assistant program in Ukraine and reprogram
funds to support other Fulbright student and scholar programs in Ukraine.

Informal Recommendation 6: Embassy Kyiv should reexamine position descriptions and
work hours for the public diplomacy locally employed staff to identify opportunities for existing
staff members to provide needed coverage at the planned Kyiv American Center.

Informal Recommendation 7: Embassy Kyiv should share the program and budget formats
developed by its grants staff with other missions that receive Assistance for Europe, Eurasia and
Central Asia funds.

Informal Recommendation 8: Embassy Kyiv should provide additional grants training to all
locally employed staff members in the public affairs section who serve as grants officer
representatives.

Informal Recommendation 9: Embassy Kyiv should implement a training program for
consular section staff.

Informal Recommendation 10: Embassy Kyiv should reduce the amount of Ukrainian
coinage maintained by the cashiers.

Informal Recommendation 11: Embassy Kyiv should elect an International Cooperative
Administrative Support System council chairperson from a different agency during the next
election.


                                       33
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Kyiv should move the International Cooperative
Administrative Support Services information to a section of its own on the intranet site.

Informal Recommendation 13: Embassy Kyiv should implement measures to reduce
overtime payments. (Action: Embassy Kyiv)

Informal Recommendation 14: Embassy Kyiv should track overtime in support of visits and
obtain appropriate reimbursements.

Informal Recommendation 15: Embassy Kyiv should revise its post language program policy
to allow spouses who tested at 2/2 or better in Washington to enroll in post language program
classes.

Informal Recommendation 16: Embassy Kyiv should include the local U.S. Agency for
International Development staff in its policy and procedure reorientation briefings.

Informal Recommendation 17: Embassy Kyiv should advertise to U.S. embassies its vehicles
available for sale.

Informal Recommendation 18: Embassy Kyiv should designate a project manager to oversee
design, content, and maintenance of the mission’s SharePoint Web site.

Informal Recommendation 19: Embassy Kyiv should include quality of customer service as a
criterion for medical unit staff employee evaluations. (Action: Embassy Kyiv)

Informal Recommendation 20: Embassy Kyiv should reissue a management notice that
provides instructions on how to contact a medical unit staff member at any hour of the workday.

Informal Recommendation 21: Embassy Kyiv, through its employee association, should
establish a plan to make the commissary operations profitable.




                                      34
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                 Name     Arrival Date
Ambassador                                                   John Tefft        12/2009
Deputy Chief of Mission                                    Eric Schultz        07/2010
Chiefs of Sections:
Political                                            Alexander Kasanof        07/2012
Economic                                                   David Meale        08/2012
Consular                                                    Henry Hand        08/2011
Public Affairs                                             Eric Johnson       08/2011
Regional Security                                            Karen Lass       08/2012
Law Enforcement                                     William Henderson         07/2011
Export Control and Related Border Security                  James Kelly       12/2010
Regional Affairs                                    Raymond Davidson          08/2011
Management                                       Katherine Munchmeyer         08/2011
Human Resources                                     Christopher Newton        10/2012
Financial Management                                     David Howard         08/2011
General Services                                   Gregory MacDonald          08/2012
Facilities Maintenance                                   Onder Durmus         08/2011
Health Unit                                               Susan Stewart       09/2011
Information Management                                    Steven Engert       08/2011
Other Agencies:
Foreign Agricultural Service                             Randall Hager        08/2011
Defense Attaché                                          Joseph Hickox        08/2012
Defense Cooperation                                  Tracey Rueschhoff        06/2011
Bilateral Affairs                                           Sven Olson        10/2010
Defense Threat Reduction Agency                          Luke Kluchko         08/2006
U.S. Commercial Service                                Cheryl Dukelow         08/2010
U.S. Agency for International Development                    Jed Barton       08/2012
Department of Energy                                      Laura Smiley        09/2011
Federal Bureau of Investigation                                  Vacant
Department of Justice – Resident Legal Advisor             Mary Butler        06/2011
Force Protection Detachment                               Carlos Vargas       12/2010
Peace Corps                                           Douglas Teschner        02/2010
Centers for Disease Control and Protection                Charles Vitek       08/2010




                                     35
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AEECA            Assistance for Europe, Eurasia and Central Asia

DCM              Deputy chief of mission

Department       U.S. Department of State

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

LE               Locally employed (staff)

NATO             North Atlantic Treaty Organization

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

PAS              Public affairs section

PEPFAR           President’s Emergency Plan for HIV/AIDS Relief

USAID            U.S. Agency for International Development




                            36
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
